Nos. 19-251 & 19-255
444444444444444444444444444444444444444444
IN THE

Supreme____________________
Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION AND
THOMAS MORE LAW CENTER, Petitioners,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA
, Respondent.
____________________
On Writs of Certiorari to the United States Court of
Appeals for the Ninth Circuit
____________________
Brief Amicus Curiae of Free Speech Coalition,
Free Speech Def. & Ed. Fund, Cal. Constitutional
Rights Fdn, Gun Owners Fdn, Gun Owners of
America, Nat’l Ass’n for Gun Rights, Nat’l Fdn for
Gun Rights, Leadership Inst., Young America’s Fdn,
Nat’l Right to Work Legal Def. Fdn, Nat’l Right to
Work Com., One Nation Under God Fdn, U.S.
Constitutional Rights Legal Def. Fund, Public
Advocate, Clare Boothe Luce Center for Cons.
Women, Western Journalism Center, Cons. Legal
Def. & Ed. Fund, Downsize DC Fdn,
DownsizeDC.org, The Senior Citizens League, and
Restoring Liberty Action Com. in Support of
Petitioners
__________________

DAVID A. WARRINGTON
Richmond, VA
Attorney for NAGR/NFGR

GARY G. KREEP
STEVEN C. BAILEY
Ramona, CA 92065
Attorneys for Amicus Curiae CCRF

*Counsel of Record
March 1, 2021

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 8
ARGUMENT
I.

AMERICA’S STATUS AS A CONSTITUTIONALLY
LIMITED REPUBLIC IS JEOPARDIZED BY STATE
POLITICIANS EMPOWERED TO COMPEL
DISCLOSURE OF THEIR IDEOLOGICAL
OPPONENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. The First Amendment’s Protections
Were Designed to Preserve America
as a Constitutional Republic . . . . . . . . . . . 9
B. Voluntary Associations Are
Essential to the Protection of
Constitutional Liberties . . . . . . . . . . . . . . 12
C. Americans Fear Their Government Is
Restricting Their Rights . . . . . . . . . . . . . . 14
D. Americans Believe that Some State
Attorneys General Are Acting as HyperPartisan Activists . . . . . . . . . . . . . . . . . . . 16

ii
II. FORCED DISCLOSURE VIOLATES THE TIMEHONORED RULE OF ANONYMITY WHICH
PROTECTS THE SOVEREIGNTY OF THE PEOPLE . 18
A. The Founders Understood the Historical
Battle to Protect Anonymity that
California Has Disregarded . . . . . . . . . . . 18
B. The American Principle of Anonymity Is
Predicated on the Sovereignty of the
People . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
C. This Court’s Press Decisions Have
Guaranteed the Anonymous Entry and
Participation in the Marketplace of Ideas
without a License . . . . . . . . . . . . . . . . . . . 24
D. The Freedom to Assemble and Associate
to Advocate Anonymously. . . . . . . . . . . . . 27
E. Compelled Disclosure Leads to Abuses . . 28
III. THE CALIFORNIA REQUIREMENT COLLIDES
WITH THE SUPREME COURT’S FIRST
AMENDMENT PRECEDENTS GOVERNING
CHARITABLE SOLICITATIONS . . . . . . . . . . . . . . . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment I . . . . . . . . . . . . . . . . . . . . . . . . 9, passim
STATUTES
26 U.S.C. § 6103 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
26 U.S.C. § 6104 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
26 U.S.C. § 7213 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
29 U.S.C. § 411(a)(4) . . . . . . . . . . . . . . . . . . . . . . . 30
29 U.S.C. § 433(b). . . . . . . . . . . . . . . . . . . . . . . 28, 29
Cal. Gov. Code § 12581 . . . . . . . . . . . . . . . . . . . . . 12
Cal. Gov. Code § 12591.1 . . . . . . . . . . . . . . . . . . . . . 4
REGULATIONS
51 N.J.R. 637(a) (May 6, 2019) . . . . . . . . . . . . . . . . 7
85 Fed. Reg. 31959 (May 28, 2020) . . . . . . . . . . . . . 7
CASES
Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015) . . . . . . . . . . . . . 31
Enying Li v. Holder, 738 F.3d 1160
(9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . 10
International Union, UAW v. National Right
to Work Legal Defense and Education
Foundation, Inc., 590 F.2d 1139
(D.C. Cir. 1978) . . . . . . . . . . . . . . . . . . . . . 29, 30
Lovell v. Griffin, 303 U.S. 444 (1938) . . . . . . . . . . 24
Madigan v. Telemarketing Associates,
538 U.S. 600 (2003) . . . . . . . . . . . . . . . 31, passim
McIntyre v. Ohio Elections Commission,
514 U.S. 334 (1995) . . . . . . . . . . . . . . . 18, passim

iv
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) . . . . . . . . . . . . . . . 27, 28, 30
Riley v. National Federation of the Blind of North
Carolina, Inc., 487 U.S. 781 (1988) . . . 31, 32, 36
Secretary of State of Maryland v. Joseph H.
Munson Co., 467 U.S. 947 (1984) . . . . . . . 31, 32
Talley v. California, 362 U.S. 60 (1960) . . 22, 23, 26
Village of Schaumburg v. Citizens for a Better
Envt., 444 U.S. 620 (1980). . . . . . . . . . . . . 31, 32
Watchtower v. Village of Stratton,
536 U.S. 150 (2002) . . . . . . . . . . . . . . . . . . . . . 25
MISCELLANEOUS
IV W. Blackstone, Commentaries on the Laws of
England (U. of Chicago Press facsimile
edition: 1769) . . . . . . . . . . . . . . . . . . . . . 20, 21
J. Bote, “92% of Americans think their basic rights
are being threatened, new poll shows,”
USA Today (Dec. 16, 2019) . . . . . . . . . . . . . . . 15
J.C. Braceras, “Freedom of association is under
attack. Will the Supreme Court protect it?”
USA Today (Jan. 25, 2021) . . . . . . . . . . . . . . . 16
California Department of Justice, Charitable
Trusts Section, Attorney General’s Guide for
Charities (April 2020) . . . . . . . . . . . . . . . . . . . . 5
W. Davis, Eastern & Western History, Thought &
Culture 1600-1815 (Univ. Press of
America: 1993) . . . . . . . . . . . . . . . . . . . . . . . . . 19
Declaration of Independence . . . . . . . . . . . . . . . . . 23
J.T. Fetch, “NRA strikes back against New York
attorney general, claims lawsuit was political
attack,” WRGB (Aug. 6, 2020). . . . . . . . . . . . . 17

v
G. Foster, “Tocquevillian Associations and
Democracy: A Critique,” Aporia, vol. 25,
no. 1-2015 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
S. Greenhut, “Planned Parenthood’s California
Counsel,” City Journal (Sept. 11, 2015) . . . . . 17
J. Jones, “Record High in U.S. Say Big Government
Greatest Threat,” Gallup (Dec. 18, 2013) . . . . 15
J. Madison, Memorial and Remonstrance Against
Religious Assessments (1785) . . . . . . . . . . . . . 11
J. Milton, Areopagitica (Liberty Fund: 1999) . 19, 20
E. Ortiz, “State attorneys general have sued
Trump’s administration 138 times – nearly
double that of Obama and Bush,” NBC News
(Nov. 16, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 16
Sources of Our Liberties (Perry, ed., Amer. Bar.
Found.: N.Y.U. Press 1972) . . . . . . . . . . . . 19, 20
L. Wilkinson, “Kamala Harris’s troubling record
as California’s attorney general,” The Spectator
(Aug. 14, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 17

INTEREST OF THE AMICI CURIAE1
Free Speech Coalition, Gun Owners of America,
Inc., National Association for Gun Rights, National
Right to Work Committee, Public Advocate of the
United States, DownsizeDC.org, and The Senior
Citizens League are nonprofit social welfare
organizations, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4). Free
Speech Defense and Education Fund, Young America’s
Foundation, Gun Owners Foundation, California
Constitutional Rights Foundation, Leadership
Institute, National Foundation for Gun Rights,
National Right to Work Legal Defense Foundation,
One Nation Under God, U.S. Constitutional Rights
Legal Defense Fund, Clare Boothe Luce Center for
Conservative Women, Western Journalism Center,
Conservative Legal Defense and Education Fund, and
Downsize DC Foundation are nonprofit educational
and legal aid organizations, exempt under IRC section
501(c)(3). Restoring Liberty Action Committee is an
educational organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law. Several of
1

It is hereby certified that counsel for all parties have consented
to the filing of this brief; that no counsel for a party authored this
brief in whole or in part; and that no person other than these
amici curiae, their members, or their counsel made a monetary
contribution to its preparation or submission.

2
these amici have filed amicus briefs in this and other
related cases, including:
• AFPF v. Harris, Nos. 15-55446 & 15-55911,
Ninth Circuit, Brief Amicus Curiae in Support
of Petition for Rehearing En Banc (January 21,
2016);
• Citizens United v. Schneiderman, No. 16-3310,
Second Circuit, Brief Amicus Curiae in Support
of Appellants and Reversal (January 13, 2017);
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
Ninth Circuit, Brief Amicus Curiae in Support
of Plaintiff-Appellee and Affirmance (January
27, 2017);
• Institute for Free Speech v. Becerra, No. 1717403, Ninth Circuit, Brief Amicus Curiae in
Support of Plaintiff-Appellant and Reversal
(March 16, 2018);
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
Ninth Circuit, Brief Amicus Curiae in Support
of Petition for Rehearing En Banc (October 5,
2018); and
• AFPF v. Becerra, Nos. 19-251 & 19-255, U.S.
Supreme Court, Brief Amicus Curiae in Support
of Petitioners (September 25, 2019).

3
STATEMENT
California is one of approximately 40 states2 that
license and regulate how nonprofit organizations may
communicate with state residents when raising funds
for their programs.3 Although these “State Charitable
Solicitation Acts” (“CSAs”) vary, most require tens of
thousands of nonprofit organizations — and often the
for-profit firms which help them raise funds — to
register in advance, to report periodically, to pay fees
to the state, and to comply with a myriad of
burdensome requirements.4
Generally, registration requires filing an
application supported by certain attachments,
enclosures, certifications, and payment of registration
fees.5 Once filed, the documents usually become

2

See www.multistatefiling.org/n_appendix.htm.

3

The Ninth Circuit broadly describes the role of the Attorney
General under this statute to be “policing charitable fraud.” See
Americans for Prosperity Foundation v. Becerra, 903 F.3d 1000,
1004 (9th Cir. 2018) (“AFPF”). Under such a theory, the general
affairs of every nonprofit mailing nationally would be accountable
to the Attorneys General of every state into which its mail is
directed, not just those jurisdictions where it is domiciled or
maintains a physical presence.
4

Requirements can be sourced in statutes, regulations, guides, or
sometimes contained on the registration and reporting forms
without any statutory or regulatory authorization.

5

Some states require multiple signatures and notarized
signatures on forms, which can require that these forms be
physically sent around the country before filing.

4
subject to public review. Only after registration is the
nonprofit allowed to communicate with that state’s
residents about issues and programs, and solicit
contributions. Thereafter, registrants must continue
to file annual reports and pay renewal fees. Some
states require updates to be filed within 30 days after
any change to the materials previously filed.6 A state
may punish noncompliance through substantial civil
fines and injunctive relief including prohibition from
continuing to mail to, and solicit funds from, residents
of the state.7
Although larger nonprofits and fundraisers often
develop the expertise in-house to comply with the
multitude of states’ requirements, many must use
funds contributed for their programs to purchase
compliance services. For organizations seeking to
raise funds on a nationwide basis, the fees and costs of
complying with these laws can run $10,000 or more
annually. Even worse, these redundant disclosures of
information impose an enormous compliance burden
while doing the public no good — except for providing
states with a rationale for collecting fees, and giving

6

Although there has been an effort to develop a “unified
registration statement” to standardize registration and reporting,
several states that have joined that effort have soon thereafter
thwarted its purpose and made the process more complicated by
imposing additional state-specific requirements. See The Unified
Registration Statement (The Multi-State Filer Project).
7

Penalties can range from $1,000 “per act or omission,” to
$10,000 for violations “with intent to deceive or defraud....” Cal.
Gov. Code § 12591.1(a) and (c).

5
state officials a regulatory hook to exercise control over
nonprofits.
CSAs impose a particular burden on new
organizations seeking to do test mailings or to begin a
direct mail fundraising program to determine whether
there is sufficient support for their cause to raise funds
in the mail. The threshold cost of many thousands of
dollars, imposed on top of printing and postage,
discourages new entrants from trying to enter and
compete in the marketplace of ideas.
The burden placed on nonprofits by CSAs is just
one aspect of state control over nonprofits. The
California Attorney General publishes a 110-page
Guide8 setting out all the myriad of rules and
regulations imposed on nonprofits. And California is
just one of 50 states. By any standard, nonprofits
operate in a highly regulated industry. Faced with
thousands of rules, nonprofits can be expected to
violate some statute, regulation, policy, or instruction
with some frequency, allowing states to find technical
violations by virtually every organization and thus
empowering state officials to silence those
organizations through fines, cease and desist demands,
and in some cases civil and criminal prosecutions.
In states like California, state attorneys general
enjoy broad law enforcement powers to administer
these laws — and broad prosecutorial discretion. In
practice, CSA enforcement can be selective and
8

California Department of Justice, Charitable Trusts Section,
Attorney General’s Guide for Charities (April 2020).

6
arbitrary, lending itself to political abuse, opening
nonprofits disfavored by attorneys general to targeted
enforcement, and subjecting them to large defense
costs and civil penalties.
Although this Court has rendered a handful of
decisions limiting the types of restrictions which
governments can impose on charitable solicitations, it
has not yet addressed a broad challenge to states’
authority to impose this type of licensing scheme.
Many nonprofits believe the entire state CSA scheme
is unconstitutional. Nevertheless, nonprofits and
fundraisers generally have abided by these
administrative schemes as the path of least resistance,
so that they may be allowed to pursue the activities for
which they were organized rather than incur the
enormous commitment of resources required to bring
a constitutional challenge. Consider the obvious cost
and burden associated with the current challenge to
even a small portion of one of these statutes.
Generally, regulators face resistance only when states
add new and particularly crippling restrictions to the
baseline compliance burden.
In addition to complying with the state CSA
requirements, most tax exempt organizations file an
annual information return with the IRS — IRS Form
990. Schedule B to IRS Form 990 requires the
nonprofit to identify the names and addresses of
significant contributors and amounts of their
contributions to the organization. Until recently, the
list of contributors was required for all organizations
that filed a Form 990. But on May 28, 2020, the IRS

7
issued a revised regulation,9 and presently does not
require a Schedule B list of contributors for
organizations other than section 501(c)(3)
organizations and section 527 political organizations.10
Schedule B’s donor information is kept confidential
by the IRS and nondisclosure is backed by severe civil
and criminal penalties. See 26 U.S.C. §§ 6103 & 7213.
Although exempt organizations must file the Form 990
and complete Schedules B with the IRS, they may
redact donor information in required disclosures to the
public. See 26 U.S.C. § 6104(d)(3). Similarly, for
decades, most CSAs have required tax-exempt
organizations have been required by CSAs only to
submit a Schedule B with donor names and addresses
redacted, until California demanded more. However,
based on a 2010 policy change, the California Attorney
General started declaring registrations incomplete
when a redacted Schedule B was submitted. The
California Attorney General threatened noncomplying
nonprofits, including Petitioners, with fines and
suspension of charitable solicitation registration. The
record below in the AFPF litigation demonstrates that
there was no actual need for the unredacted forms.11
9

See 85 Fed. Reg. 31959 (May 28, 2020).

10

The New Jersey Division of Consumer Affairs recently
promulgated a regulation that requires that nonprofits provide
Schedule B required information , even if the exempt organization
is not a 501(c)(3) organization. 51 N.J.R. 637(a) (May 6, 2019).

11

See AFPF Brief for Petitioner (“AFPF Pet. Br.”) at 9, 13-14;
Thomas More Brief for Petitioner (“Thomas More Pet. Br.”) at 13,
15.

8
Yet California attorneys general refused to rescind the
requirement, leading to the challenge below.
SUMMARY OF ARGUMENT
Our constitutional republic allows Americans who
have strong feelings about public policy issues to
become active participants in their own governance.
Some choose to take leadership roles where they
voluntarily disclose their identity, while others choose
to avoid publicity making contributions to associations
whose interests and goals match their own. This case
involves a real threat by the California government to
coerce the disclosure of the identity of large donors,
putting them at risk retaliation from either the public
or partisan office holders. Both mob and ruler are
dangerous to dissenters, and the principle of
anonymity protects Americans from both.
The demands by the Attorney General of
California that every nonprofit charity seeking to mail
educational material containing solicitations for funds
into California must disclose to him the name, address,
and contribution amount, of every large donor to that
organization violates the anonymity princple, which
protects those exercising their press and associational
freedoms. The anonymity principle has a rich history
in England, and an even richer history in America,
where the people are sovereign. It should be honored
and applied, not disregarded and overruled by
government claims for the need of greater power over
the people.

9
The court below applied this Court’s election law
precedents, which have no application here, in
upholding the California Attorney General’s demands
for confidential donor information. Instead, this Court
should apply its precedents relating to charitable
solicitations, finding the Attorney General’s actions to
constitute impermissibly broad prophylactic controls of
charitable solicitations and communications.
ARGUMENT
I.

AMERICA’S
STATUS
AS
A
CONSTITUTIONALLY LIMITED REPUBLIC
IS JEOPARDIZED BY STATE POLITICIANS
EMPOWERED TO COMPEL DISCLOSURE
OF THEIR IDEOLOGICAL OPPONENTS.
A. The First Amendment’s Protections Were
Designed to Preserve America as a
Constitutional Republic.

The First Amendment protects five enumerated
rights which history had taught the Framers that
governments were prone to violate:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom
of speech, or of the press; or the right of the
people peaceably to assemble, and to
petition the Government for a redress of
grievances. [U.S. Constitution, Amendment I
(emphasis added).]

10
Petitioners and these amici believe that the
disclosures demanded by Respondent jeopardize the
rights of Americans operating collectively in civil
society through nonprofit organizations. Respondent
alleges that not only has it never done anything wrong
in handling donor information,12 but also no harm
could ever be suffered by a nonprofit or a donor due to
its forced disclosure.13
The California Attorney
General would prefer this Court to operate based on
some form of judicial presumption that governmental
powers are never abused, that Attorneys General
engage in nothing but evenhanded administration of
the law, that politicians elected or appointed to high
office cease to act as politicians, and that state office
holders would never use their position to advance their
own political agendas, reward their friends, or punish
their enemies. Yet, adopting such an assumption
would require this Court to disregard both history and
current reality.

12

Respondent’s false representations to the courts below as to the
degree to which the identity of donors was compromised (see
AFPF Brief of Petitioner at 9) might well trigger the principle
“falsus in uno, falsus in omnibus.” Indeed, that doctrine was
declared to be “the law of the Ninth Circuit” in Enying Li v.
Holder, 738 F.3d 1160, 1165 (9th Cir. 2013), but apparently was
not applied here.
13

See Combined Brief in Opposition (Nov. 25, 2019) at 22 n.6.
With respect to public disclosure, California argues, any “concern
that hostility and retaliation” could chill fundraising even “in
times of deep public polarization” were baseless because “majordonor information is collected for use only by the Attorney
General,” ignoring completely the risk posed by inadvertent
disclosure or disclosure to the Attorney General himself.

11
All five enumerated First Amendment rights
protect the ability of Americans to participate in their
own governance, without fear of reprisal. Although
not all asserted by Petitioners, these amici believe that
this case implicates each of the enumerated First
Amendment rights to varying degrees. First, many of
the nonprofit organizations required to identify their
largest donors are religious in nature, and disclosure
may impair their finding and thereby jeopardize the
free exercise of their religion.14 Second, speech and
press rights are obviously implicated, and particularly
press because nonprofits publish their sentiments in
direct mail sent to their current members and
supporters, or potential members and supporters, in
California. Third, the very act of recruiting members
and supporters and coordinating their public policy
activities are acts of assembly — albeit not in person.
Lastly, nonprofits often conduct programs to petition
government, either through direct contact with office
holders or through grassroots lobbying.
Some of these amici have solicited funds in
California, while others have not, but join here to
defend the constitutional principles involved
nonetheless. Indeed, the state law involved here is
generally triggered by nonprofits, not only when they
seek to raise money in California, but also more

14

The “free exercise” clause is also violated when the state
intrudes into the realm of “religion,” which Madison defined as
“the duty we owe to our Creator and the manner of discharging it
[that] can be directed only by reason and conviction, not force and
violence.” J. Madison, Memorial and Remonstrance Against
Religious Assessments, (1785).

12
broadly even to nonprofits which hold “property for
charitable purposes.” Cal. Gov. Code § 12581. AFPF
describes the statute as applying to charities which
“operate or fundraise” in California. AFPF Pet. Br. at
5. Thus, California seeks to require a nonprofit to file
an unredacted Schedule B with the Attorney General
in certain circumstances even if that organization is
not soliciting contributions in California.
The Framers enumerated these five First
Amendment rights to protect Americans in the
exercise of certain rights that the signers of the
Declaration of Independence declared to be
unalienable because they were bestowed upon man by
the Creator. The Attorney General of California’s rule,
now a California law, limits and chills the exercise of
these rights and participation in the political process
by empowering that State to compel its critics to
identify their key funding sources, and thereafter to
target those critics. This state law constitutes a
frontal assault on the precious right of anonymity
which is ancillary to most First Amendment freedoms,
making this a case of great import.
B. Voluntary Associations Are Essential to
the Protection of Constitutional
Liberties.
During his travels in the early days of our
Republic, Alexis de Tocqueville studied the role served
by voluntary associations.
One student of de
Tocqueville summarized his observations in this way:

13
Alexis de Tocqueville’s notion of political and
civic association is a recurrent theme in his
work Democracy in America. There he argues
that associations are a necessary correlational
feature of democratization that should be
promoted.... This is because they correct the
natural defects of democracy in that they ...
protect against the systemic risk of
tyranny of the majority [and] channel the
energy of democracy.”
[G. Foster,
“Tocquevillian Associations and Democracy: A
Critique,” Aporia, vol. 25, no. 1-2015 (emphasis
added).]
Those benefits to the nation of voluntary associations
were doubtless true in the 1830s and certainly remain
true nearly two centuries later. Today, Americans join
associations for all manner of purposes. And, while
many voluntary associations are informal,
unorganized, and transient, those voluntary
associations that have enduring existence and
meaningful funding now generally operate as nonprofit
organizations — which either will be protected, or left
at risk to the tender mercies of state Attorneys
General, by this Court’s decision. It is critical to the
financial health of nonprofits that their donors not be
put at risk of public disclosure. And additionally
donors believe, quite reasonably, that making a
contribution could land them on a “hit list” maintained
by those with real political power, and thus it is likely
that many of whom will choose to withdraw from the
public arena and take their money with them if they
have not done so already. Without the funding
provided by those donors who California requires to be

14
disclosed on IRS Form 990 Schedules B, many
nonprofit organizations would cease to exist. In turn,
without meaningful dissent on public policy issues,
those in power will have free reign to pursue their own
agendas without being subjected to pressures from
organized groups of citizens, and thus increasingly
without the consent of the governed.
C. Americans Fear Their Government Is
Restricting Their Rights.
The California policy change which required
charities to file a schedule containing their largest
contributors occurred in 2010, when the California
Registry of Charitable Trusts (“Registry”)
administered by the Attorney General of California
began to send deficiency letters to those nonprofits
registering to conduct charitable solicitations in
California. Although many nonprofits complied, in
December 2014, AFPF filed its challenge to the
Attorney General’s demand as unconstitutional on its
face and as applied. See AFPF Pet. Br. at 5, 7, 13.
A Gallup poll taken in December 2013, just before
suit was filed, revealed that 72 percent of Americans
believe Big Government is the biggest threat to the
country. By way of comparison, only 21 percent feared
Big Business, and 5 percent feared Big Labor. The
fear of government was bipartisan — not just a
reaction to the political party in control of the White
House. Then, during the presidency of Barack Obama,
to be sure, the vast majority of Republicans feared Big
Government (92 percent) — but even then, more than
half (56 percent) of Democrats and more than two-

15
thirds (71 percent) of Independents also feared Big
Government.15
The view held by many donors is that, by
contributing to a nonprofit organization which is
disfavored by the “ruling class,” they will paint a
target on their backs. That is not an outlier position
— it is common, observed wisdom. While this
litigation was pending in the Ninth Circuit, USA
Today reported that a Harris Poll revealed that 92
percent of Americans “think their rights are under
siege... Americans are most concerned that their
freedom of speech (48%), right to bear arms (47%) and
right to equal justice (41%) are at risk.”16
The concerns of Americans in our “cancel culture”
are widespread, and those concerns are certainly
shared by the donor class, as discussed in a recent
USA Today op-ed.
Millions of Americans today are afraid to
express their opinions on matters of public
importance. A summer poll by the Cato
Institute found that 62% of Americans were
afraid to reveal their opinions; nearly onethird (32%) of employed Americans feared that
they would lose their job or miss out on career
opportunities if their views became known.

15

See J. Jones, “Record High in U.S. Say Big Government
Greatest Threat,” Gallup (Dec. 18, 2013).
16

J. Bote, “92% of Americans think their basic rights are being
threatened, new poll shows,” USA Today (Dec. 16, 2019).

16
Out of fear of harassment or social
banishment, many donors to certain causes
prefer to make their gifts anonymously.
Unfortunately, some politicians today want to
require charities to turn over their donor lists
to the state....
Politicians may be seeking donor
information...to create informal enemy lists....
[J.C. Braceras, “Freedom of association is
under attack. Will the Supreme Court protect
it?” USA Today (Jan. 25, 2021).]
D. Americans Believe that Some State
Attorneys General Are Acting as HyperPartisan Activists.
While Respondent wants this Court to believe that
state attorneys general do not allow politics to affect
their actions, there is little reason for the public or
donors to adopt that view. NBC News reported last
November that state attorneys general filed 148
multistate lawsuits against the Trump Administration
— nearly double those against the Obama and Bush
Administrations. The article explained: “[i]t’s routine
for attorneys general to sue the federal government,
but experts say the sharp rise signifies the growing
partisan and legal divide with Washington.” Only six
lawsuits involved a Republican attorney general.
“California’s Democratic attorney general, Xavier
Becerra, has been part of the most multistate
lawsuits....” E. Ortiz, “State attorneys general have
sued Trump’s administration 138 times – nearly
double that of Obama and Bush,” NBC News (Nov. 16,
2020).

17
When the Center for Medical Progress conducted
an undercover investigation into Planned Parenthood,
capturing discussions about the illegal sale of aborted
baby parts, then-California Attorney General Kamala
Harris expressed no interest in that activity, but
rather arranged for the arrest of the investigative
reporters. See S. Greenhut, “Planned Parenthood’s
California Counsel,” City Journal, (Sept. 11, 2015).
AG Harris apparently arranged for a raid on the home
of the reporter — David Daleiden. “California’s
prosecutors charged Daleiden and an associate with 15
felonies for filming Planned Parenthood staff without
their permission — the only known instance of
undercover journalists being criminally prosecuted in
California history.” L. Wilkinson, “Kamala Harris’s
troubling record as California’s attorney general,” The
Spectator (Aug. 14, 2020).
Other than California, the one state most
aggressively supporting the push for unredacted
Schedules B has been New York. In August 2020,
“New York Attorney General Letitia James announced
... she has filed a lawsuit to dissolve the National Rifle
Association.” J.T. Fetch, “NRA strikes back against
New York attorney general, claims lawsuit was
political attack,” WRGB (Aug. 6, 2020).
Historians have never verified the quotation
attributed to Thomas Jefferson, that “[w]hen
government fears the people, there is liberty. When
the people fear the government, there is tyranny.”
There is nonetheless a great deal of history accurately
reflected in that saying. These amici view this case as
a vitally important opportunity for this Court — as a

18
guardian of the constitutional rights of the people — to
constrain the arbitrary power of state governments,
and to protect the constitutional rights of the people
and the foundational principle of anonymity.
II. FORCED DISCLOSURE VIOLATES THE
TIME-HONORED RULE OF ANONYMITY
WHICH PROTECTS THE SOVEREIGNTY OF
THE PEOPLE.
As discussed in Section I, supra, all five First
Amendment freedoms are implicated by California’s
requirement that no nonprofit may solicit funds in
California without registration, reporting, and
disclosure of its largest donors. Although the statute
does not use the terminology of “licensure,” that is
exactly what registration requires. Prior to publishing
its sentiments to Californians — typically through
distribution of written materials through the mail —
and seeking contributions, a nonprofit must register
with the State. To register, it must disclose its donors.
See AFPF Pet. Br. at 5-6. Thus, that statutory scheme
includes multiple violations of the Freedom of the
Press protected rights — Anonymity, no Licensure,
and no Prior Restraint. The Anonymity principle is
also embodied in the Right of Assembly/Association.
A. The Founders Understood the Historical
Battle to Protect Anonymity that
California Has Disregarded.
In McIntyre v. Ohio Elections Commission, 514
U.S. 334 (1995), Justice Thomas, concurring in the
judgment, found the anonymity principle reflected in

19
“the historical evidence ... that Founding-era
Americans opposed attempts to require that
anonymous authors reveal their identities on the
ground that forced disclosure violated the ‘freedom of
the press.’” Id. at 361 (Thomas, J., concurring). The
anonymity principle had been developed in England
well before America’s founding.
A strict licensing ordinance was issued in 1637 by
the Star Chamber, the terms of which “provided an
elaborate scheme of licensing designed to prevent the
appearance of unlicensed books,” including the
requirement that “all books were to bear the
names of the printer and the author.” Sources of
Our Liberties at 242 (Perry, ed., Amer. Bar. Found.:
N.Y.U. Press 1972) (emphasis added).
In 1643, the poet John Milton challenged this
English system of licensing, “attack[ing] government
censorship in a well-reasoned treatise entitled
Areopagitica: A Speech of Mr. John Milton for the
Liberty of Unlicensed Printing, to the Parliament of
England17 ..., which he did not bother to register,” as
required by the existing licensing laws. W. Davis,
Eastern & Western History, Thought & Culture 16001815 at 25-26 (Univ. Press of America: 1993). Milton’s
eloquent support of the freedom of the press remains
unsurpassed:
[T]hough all the windes of doctrin were let
loose to play upon the earth, so Truth be in the

17

See J. Milton, Areopagitica (Liberty Fund: 1999).

20
field, we do injuriously by licencing and
prohibiting to misdoubt her strength. Let her
and Falshood grapple; who ever knew Truth
put to the wors, in a free and open encounter.
Her confuting is the best and surest
suppressing.... What a collusion is this,
whenas we are exhorted by the wise man to
use diligence, to seek for wisdom as for hidd’n
treasures early and late, that another order
shall enjoyn us to know nothing but by statute.
[Areopagitica at 45-46.]
Fifty years after Milton published his Areopagitica
treatise, the English Parliament allowed a successor
licensing act to expire, freeing the press. See Sources
of our Liberties at 243. Seventy-five years after that,
Sir William Blackstone could write with confidence
that “[t]he liberty of the press is indeed essential to the
nature of a free state.”
IV W. Blackstone,
Commentaries on the Laws of England (“Blackstone’s
Commentaries”) at 151 (U. of Chicago Press facsimile
edition: 1769). Blackstone explained that the liberty
of the press “consists” of two governing principles.
First, the civil government may “lay[] no previous
restraints upon publications” (emphasis original); and
second, “[e]very freeman has an undoubted right to lay
what sentiments he pleases before the public.” Id.
Otherwise, Blackstone concluded:
To subject the press to the restrictive power of
a licenser, as was formerly done ... is to subject
all freedom of sentiment to the prejudices of
one man, and make him the arbitrary and
infallible judge of all controverted points in

21
learning, religion, and government.” [Id. at
152.]
Blackstone asserted that the liberty of the press
was established in England in 1694. Blackstone’s
Commentaries at 152, n.2. Prior to that time, no
person could lawfully publish anything without having
first secured a license to do so from the crown. As
Blackstone explained it:
The art of printing, soon after it’s [sic]
introduction, was looked upon ... as merely a
matter of state, and subject to the coercion of
the crown. It was therefore regulated ... by the
king’s proclamations, prohibitions, charters of
privilege and of licence, and finally by the
decrees of the court of starchamber which
limited the number of printers, and of presses
which each should employ, and prohibited new
publications unless previously approved by
proper licensers. [Id.]
Disregarding these historical principles, the court
of appeals below concluded that no nonprofit may send
solicitations through the mail to California without
first obtaining a license, because it claimed that such
forced disclosure of donors was a helpful tool in
preventing fraud. See AFPF v. Becerra at 1011. This
finding cuts the very heart out of the freedom of the
press. As Blackstone noted, the press guarantee was
deliberately designed to limit the government to
punishing an individual’s committing “fraud” after it
has been perpetrated, not before by imposing prior
restraints upon all publishers, legitimate and

22
illegitimate alike. The court of appeals simply ignored
this venerable rule, joining ranks with the Star
Chamber by ruling that it is perfectly legitimate for
California to take “reasonable” steps to “deter” fraud
by requiring disclosure. Id.
B. The American Principle of Anonymity Is
Predicated on the Sovereignty of the
People.
The American principle of anonymity was built
upon the hard-earned rights of Englishmen, but
developed on a foundation quite different from the
system that existed in England. Where sovereignty is
vested in a monarch, the government can be expected
to assert the power and right to know everything that
happens in the society which could undermine the
government. Of particular interest to monarchs is the
identity of those subjects who would dare to criticize
their government. In Talley v. California, 362 U.S. 60
(1960), Justice Black recounted the manner in which
the English system suppressed dissent by forcing
dissenters to reveal their identities:
The obnoxious press licensing law of
England, which was also enforced on the
Colonies was due in part to the knowledge that
exposure of the names of printers, writers and
distributors would lessen the circulation of
literature critical of the government. The
old seditious libel cases in England show the
lengths to which government had to go to find
out who was responsible for books that were
obnoxious to the rulers....
Before the

23
Revolutionary War colonial patriots frequently
had to conceal their authorship or
distribution of literature that easily could have
brought down on them prosecutions by
English-controlled courts.
[Id. at 64-65
(emphasis added).]
Freed from the English monarch, sovereignty in
the United States has always been vested in the
People. The right to govern is not divinely conferred;
rather, “Governments are instituted among Men,
deriving their just Powers from the Consent of the
Governed.”
(Declaration of Independence.)
Government officials serve — they do not rule.
Government officials do not embody the government —
they only are loaned the reins of government for a
season.
In a constitutional republic, anonymity protects
the people’s full participation in the people’s business,
because the people are the principals and the
government officials are their agents and
representatives. Anonymity has a rich heritage from
the founding era onward, as revealed by a short
excerpt of that history, as told by Justice Stevens:
That [anonymity] tradition is most famously
embodied in the Federalist Papers, authored
by James Madison, Alexander Hamilton, and
John Jay, but signed “Publius.” Publius’
opponents, the Anti-Federalists, also tended to
publish under pseudonyms. [McIntyre at 343
n.6.]

24
The American principle of anonymity, restricting
what government officials can force us to reveal about
our activities to them or to others, is constitutionally
grounded in First Amendment freedoms of press and
association. Its application ranges from pamphlets to
television ads, from grassroots lobbying to
memberships in voluntary societies, from public policy
litigation to direct mail and online communications
including solicitation of contributions.
C. This Court’s Press Decisions Have
Guaranteed the Anonymous Entry and
Participation in the Marketplace of Ideas
without a License.
Although the challenged disclosure of large donors
is just a part of the state law requiring registration,
the entire scheme of state charitable solicitation laws
is repugnant to the freedom of the press as it has been
applied by this Court. Indeed, a brief review of the
right to anonymity shows how it protects a sovereign
people from the tyranny of both the government and of
the mob.
1.

No Required License.

In 1938, this Court held “invalid on its face” a city
ordinance prohibiting a person from distributing any
written “literature of any kind ... without first
obtaining written permission from the City Manager
of the City of Griffin [Georgia].” Lovell v. Griffin, 303
U.S. 444, 447, 451 (1938). Refusing to consider the
purported interests of the city to maintain “public
order,” or “littering,” the Court found that the very

25
“character” of the ordinance “strikes at the very
foundation of the freedom of the press by subjecting it
to license and censorship.” Id. at 451.
Sixty-four years later, in Watchtower v. Village of
Stratton, 536 U.S. 150 (2002), the Court struck down
another municipal ordinance requiring one to obtain a
permit before engaging in door-to-door advocacy and to
display a permit with the person’s name upon demand.
Justice Stevens explained:
[i]t is offensive — not only to the values
protected by the First Amendment, but to the
very notion of a free society — that in the
context of everyday public discourse a citizen
must first inform the government of her desire
to speak to her neighbors and then obtain a
permit to do so. [Id. at 166.]
In short, by its no-licensing rule, the freedom of
press prohibits the government from requiring a
person to identify himself to government before
entering the marketplace of ideas — either in person,
by mail, by phone, or via the Internet — because every
freeman has the right of self-censorship, free from the
heavy hand of a government-imposed licensing system.
2.

No Compelled Disclosure of Identity.

In Talley v. California, the Court declared
unconstitutional a Los Angeles City ordinance
requiring those who disseminate hand-bills to state, on
their face, the identity of those who printed, wrote,

26
compiled, manufactured, and distributed them.
Justice Black explained the Court’s concern:
There can be no doubt that such an
identification requirement would tend to
restrict freedom to distribute information and
thereby freedom of expression....
Anonymous
pamphlets,
leaflets,
brochures and even books have played an
important role in the progress of mankind.
Persecuted groups and sects from time to time
throughout history have been able to criticize
oppressive practices and laws either
anonymously or not at all.... Even the
Federalist Papers ... were published under
fictitious names. It is plain that anonymity
has sometimes been assumed for the most
constructive purposes. [Id. at 64-65 (emphasis
added).]
Thirty-five years later, in McIntyre v. Ohio Elections
Commission, the Court struck down an Ohio election
statute which prohibited distribution of political
campaign literature not containing the name and
address of the person or campaign official issuing the
literature. Justice Stevens explained:
[T]he interest in having anonymous works
enter the marketplace of ideas unquestionably
outweighs any public interest in requiring
disclosure as a condition of entry. Accordingly,
an author’s decision to remain
anonymous, like other decisions concerning
omissions or additions to the content of a

27
publication, is ... protected by the First
Amendment. [Id. at 342 (emphasis added).]
The McIntyre rule protects the sovereignty of the
individual against forced disclosure of his identity even
if the purpose of the disclosure requirement is to make
the market participant accountable to one other than
a government official. Just as these venerable
precedents protect the speaker’s anonymity, they
should be applied here to protect the anonymity of
those persons who fund the speaker.
D. The Freedom to Assemble and Associate
to Advocate Anonymously.
Justice Harlan’s opinion in NAACP v. Alabama ex
rel. Patterson, 357 U.S. 449 (1958), provides an
eloquent explanation of how principles of anonymity
are also grounded in freedom of association, and how
they apply irrespective of the particular tactic chosen
by government to restrict dissent. In addressing an
effort by the Attorney General of Alabama to force
disclosure of the membership list of the NAACP of
Alabama, Justice Harlan wrote that “Effective
advocacy of both public and private points of view,
particularly controversial ones, is undeniably
enhanced by group association.... Of course, it is
immaterial whether the beliefs sought to be advanced
by association pertain to political, economic, religious
or cultural matters....” Id. at 460. He continued, “[i]t
is hardly a novel perception that compelled disclosure
of affiliation with groups engaged in advocacy may
constitute [an] effective ... restraint on freedom of
association....” Id. at 462.

28
Justice Harlan likewise recognized that
“abridgment of such rights, even though unintended,
may inevitably follow from varied forms of
governmental action.”
Id. at 461.
An
“unconstitutional intimidation of the free exercise of
the right to advocate” can manifest itself with “a
congressional committee investigating lobbying and of
an Act regulating lobbying.... The governmental action
challenged may appear to be totally unrelated to
protected liberties [such as] [s]tatutes imposing taxes.”
Id. at 461. He drew upon a powerful and painful
historical lesson when he found “[c]ompelled disclosure
of membership in an organization engaged in advocacy
of particular beliefs [to be] of the same order” as a
“‘requirement that adherents of particular religious
faiths or political parties wear identifying arm-bands.’”
Id. at 462. By the power of this illustration, Justice
Harlan teaches us that principles of anonymity are not
second-order concerns that can be disregarded or
suppressed, but instead are standards indispensable to
both the protection of individual liberty and the
preservation of our republic.
E. Compelled Disclosure Leads to Abuses.
Federal law sometimes requires forced disclosures
of the identity of political actors to the government or
third parties, triggering principles of anonymity. For
example, section 203(b)(1) of the Labor Management
Reporting and Disclosure Act requires the filing of
reports with the Secretary of Labor by:
Every person who pursuant to any agreement
or arrangement with an employer undertakes

29
activities where an object thereof is, directly
or indirectly ... (1) to persuade employees to
exercise or not to exercise, or persuade
employees as to the manner of exercising, the
right to organize and bargain collectively
through representatives of their own choosing.
[29 U.S.C. § 433(b) (emphasis added).]
Additionally, civil litigation also can lead to discovery
demands requiring evaluation of anonymity principles.
One important case illustrating those principles
involved both statutory disclosures and discovery in a
civil case.
In May 1973, the AFL-CIO, eleven other national
and international labor unions, and some of their
affiliates sued the amicus National Right to Work
Legal Defense and Education Foundation, Inc.
(hereinafter “NRWLDEF”) for, inter alia, failing to
report to the Secretary of Labor under section
203(b)(1). NRWLDEF operated as an independent
legal aid organization that had a long history of
successfully fighting against compulsory unionism.
See International Union, UAW v. National Right to
Work Legal Defense and Education Foundation, Inc.,
590 F.2d 1139 (D.C. Cir. 1978), further proceedings,
584 F. Supp. 1219 (D.D.C. 1984), aff’d, 781 F.2d 928
(D.C. Cir. 1986).
In the ensuing litigation, the plaintiff unions
sought to obtain NRWLDEF’s contributor list,
resulting in a discovery battle over the unions’ demand
for the names and addresses of all employers and
businesses that contributed to NRWLDEF during a

30
certain period. NRWLDEF “refused to disclose the
identities of any contributors, asserting constitutional
privileges against disclosure and contending that
disclosure would result in reprisals against
contributors.” Id. at 1145.
The district court ordered NRWLDEF, inter alia,
to identify “the thirty-seven donors who contributed
between $500 and $5,000 in 1971,” as well as certain
1972 donors of smaller amounts, and “to disclose the
names and addresses of the fifty largest contributors
to the Foundation in 1972 and 1973 who were not
identified in [NRWLDEF’s] own records as employers
or businesses.” NRWLDEF refused, and the district
court, entering adverse findings as Rule 37 sanctions,
found that the Foundation had violated the second
proviso to 29 U.S.C. § 411(a)(4) (1976). Id., at 1145-46.
On appeal, the D.C. Circuit held that NRWLDEF
had “asserted a substantial claim of constitutional
privilege,” citing Justice Harlan in NAACP v.
Alabama, 357 U.S. at 462 (“It is hardly a novel
perception that compelled disclosure of affiliation with
groups engaged in advocacy may constitute ... a
restraint on freedom of association....”). “Without
doubt, the association itself may assert the right of its
members and contributors to withhold their connection
with the association.”
International Union v.
NRWLDEF, 590 F.2d at 1152.

31
III. THE
CALIFORNIA
REQUIREMENT
COLLIDES WITH THE SUPREME COURT’S
FIRST AMENDMENT PRECEDENTS
GOVERNING
CHARITABLE
SOLICITATIONS.
The lower court’s decision relied on its prior
analysis in Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015) (“CCP”). See AFPF at
1009. However, the CCP decision was flawed because
it failed to rely on this Court’s decisions on regulations
and restrictions imposed on charitable solicitation,
which is the essential issue of this case. See CCP at
1312 (relying on Citizens United v. FEC, 558 U.S. 310
(2010) and Buckley v. Valeo, 424 U.S. 1 (1976)).
In a series of four cases, this Court has addressed
the constitutionality of government actions affecting
charitable solicitations under the First Amendment.18
Those cases recognized that charitable solicitation is
protected by the First Amendment, that broad
prophylactic rules are suspect under the First
Amendment, and that states may take action against
charitable solicitations when they are actually
fraudulent. The Ninth Circuit below utterly failed to
consider this directly relevant line of cases, dealing
with the specific matter involved: government control
of charitable solicitations.

18

Village of Schaumburg v. Citizens for a Better Envt., 444 U.S.
620 (1980); Secretary of State of Maryland v. Joseph H. Munson
Co., 467 U.S. 947 (1984); Riley v. National Federation of the Blind
of North Carolina, Inc., 487 U.S. 781 (1988); and Madigan v.
Telemarketing Associates, 538 U.S. 600 (2003).

32
On the first three of those occasions between 1980
and 1988, the Court found that various legislative
efforts — all purportedly designed to prevent fraud —
were unconstitutional. Known as “the Village of
Schaumburg trilogy,” these cases addressed an
unrelated issue of state efforts to limit the cost of
fundraising, but they also established that broad
“prophylactic statutes designed to combat fraud by
imposing prior restraints on solicitation”
unconstitutionally abridge the freedom of speech
(Madigan at 612). These cases left only “a corridor
open for fraud actions ... trained on representations
made in individual cases....” Id. at 617; see Village of
Schaumburg at 628-32; Munson at 959-64; and Riley
at 787-88.
Not surprisingly, of the four governmental actions
on charitable solicitation, only the fourth one survived
constitutional scrutiny — Madigan. There, the Court
allowed the Illinois Attorney General to bring a
common law fraud action against a specific “for-profit
fundraising corporation[] ... for fraudulent charitable
solicitations,” based upon “intentionally misleading
statements designed to deceive the listener” as to the
“percentage of charitable donations [they] retain for
themselves.” Madigan at 605-06. But, the Court
pointedly emphasized, the “bare failure to disclose that
information directly to potential donors does not
suffice to establish fraud.” Id. at 606.
Distinguishing the three previous charitable
solicitation cases in which the Court had “invalidated
state or local laws,” the Court in Madigan explained
that those laws “categorically restrained solicitation by

33
charities or professional fundraisers if a high
percentage of the funds raised would be used to cover
administrative or fundraising costs.” Id. at 610. In
contrast, the Court continued:
unlike Schaumburg, Munson, and Riley, [this
case] involves no prophylactic provision
proscribing any charitable solicitation if
fundraising costs exceeded a prescribed limit.
Instead, the Attorney General sought to
enforce the State’s generally applicable
antifraud laws against Telemarketers for
“specific instances of deliberate deception.”
[Id. at 610 (emphasis added).]
Unlike the Attorney General of Illinois in
Madigan, the Attorney General of California here has
chosen to exercise his “broad powers” to require
production of donor information on the IRS Schedule
B, expanding the prophylactic reach of the California
Trustees and Fundraisers for Charitable Purposes Act
— purportedly “solely to prevent charitable fraud.”
AFPF at 1004. Although “the First Amendment does
not shield fraud” (Madigan at 612), it does shield
charitable solicitors from “‘unduly burdensome’
prophylactic rule[s] [that are] unnecessary to achieve
the State’s goal of preventing donors from being
misled.” Id. at 619-20.
To confine government reach to specific
enforcement actions in appropriate cases, the Madigan
Court summarized its opinions in Schaumburg,
Munson, and Riley as having taken “care to leave a
corridor open for fraud actions to guard the public

34
against false or misleading charitable solicitations.”
Madigan at 617 (emphasis added). To that end, the
Madigan Court spelled out a narrow constitutional
passageway, allowing for “a properly tailored fraud
action [in which] the State bears the full burden of
proof,” including proof that the solicitor “made a false
representation of a material fact knowing that the
representation was false” and that the
representation was “made ... with the intent to
mislead....” Id. at 620 (emphasis added).
Requiring an unredacted Schedule B as a condition
for permitting charitable solicitation falls far short of
this constitutional mark. A charitable organization’s
desire to protect the identity of its donors does not
suggest an intent to deceive. And the Attorney
General’s wholesale disclosure requirement of the
confidential donor information is a superhighway, not
a narrow pathway, to reach the state’s purported goal
of preventing fraud.19
The Ninth Circuit hoped to open up Madigan’s
constitutional passageway by agreeing with the claim
that the state’s CSA is designed not just for “‘making
19

When the Attorney General does get specific, recounting a few
incidents when donor information in Schedule B has increased his
“‘investigative efficiency’” (AFPF at 1009-10), it appears that he
did not need all Schedule B donor information of all registering
solicitors, but rather “[e]ven in the five investigations where a
Schedule B was used, the Attorney General’s investigators could
not recall whether they had consulted unredacted Schedule Bs on
file before initiating the investigation ... [a]nd when investigators
relied on Schedule B, the same information could have been
obtained from other sources.” AFPF Pet. Brief at 33.

35
it easier to police for ... fraud,’” but also “to ‘tell [the
AG] whether or not there was an illegal activity
occurring.’” AFPF at 1010-11. This claim appears to
be an attempt to reopen passageways foreclosed by the
Schaumburg trilogy, because there is a lack of any
evidence that the mandated disclosure of the donors’
names and addresses has anything to do with fraud or
any other specified offense.
Indeed, other than the specific interest in “fraud
prevention,” the Ninth Circuit identified only
superficial generalities, such as that Schedule B
“‘information is necessary to determine whether a
charity is actually engaged in a charitable purpose, or
is instead violating California law by engaging in selfdealing, improper loans, or other unfair business
practices.’”20 See id. at 1009. Not only is “improper”
not an equivalent of “illegal,” but it also embraces
various synonyms from “inappropriate” to “unsuitable”
to “indecent” to “unbecoming.” Equipped with such a
fistful of vague adjectives, the California Attorney
General is well-armed to shut the state’s door to any
nonprofit he deems to be undeserving.
If, as the Madigan Court has ruled, the First
Amendment allows for only a narrow passageway to
vindicate the state’s interest in “preventing fraud,” a
fortiori, the pathway to Schedule B donor information

20

California’s justification for its demand for Schedule B
information is devoid of any connection to donor identity and
Schedule B as any purported self-dealing and loans are evident
from other parts of the Form 990, where loans and expenditures
are publicly reported.

36
must likewise be “narrowly tailored to the State’s
interest in preventing” abuses. Riley at 789. Not only
is the demand for donor information not “narrowly
tailored,” it is not tailored at all, sweeping up a
multitude of donor names to be used at the Attorney
General’s arbitrary discretion, causing a chilling of
donor participation and creating a real risk of public
disclosure as well.
CONCLUSION
These amici urge the Court to reverse the Ninth
Circuit’s judgment and remand with instructions to
enter a permanent injunction against enforcement of
the Attorney General’s policy and regulations
requiring unredacted Schedules B to be filed with the
State.
Respectfully submitted,
DAVID A. WARRINGTON
KUTAK ROCK LLP
901 East Byrd St.
Suite 1000
Richmond, VA 23219
Attorney for NAGR/NFGR
GARY G. KREEP
STEVEN C. BAILEY
CALIFORNIA
CONSTITUTIONAL RIGHTS
FOUNDATION
932 D Street, Suite 1
Ramona, CA 92065
Attorneys for CCRF

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record
March 1, 2021

